No. 19-267

 

 

IN THE

Supreme Court of the Anited States

Our LADY OF GUADALUPE SCHOOL,

Petitioner,
Vv.
AGNES MoRRISSEY-BERRU,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

REPLY BRIEF FOR PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,995 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 1, 2019.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
